SEMIANNUAL REPORT TO CONGRESS




 U.S. ELECTION ASSISTANCE COMMISSION
       OFFICE OF INSPECTOR GENERAL




For the Period:
April 1, 2013 through
September 30, 2013

               U.S. ELECTION ASSISTANCE COMMISSION
                   OFFICE OF INSPECTOR GENERAL
                        1335 East West Highway - Suite 4300
                              Silver Spring, MD 20910




October 31, 2013


To: Acting Executive Director, U.S. Election Assistance Commission


      The Inspector General Act of 1978 (Public Law 95-452), as amended,
calls for the preparation of semiannual reports to the Congress summarizing
the activities of the Office of Inspector General (OIG) for the six-month periods
ending each March 31st and September 30th. I am pleased to enclose the
report for the period from April 1, 2013 to September 30, 2013.


      The Act requires that you transmit the report to the appropriate
committees of the Congress within 30 days of receipt, together with any
comments you may wish to make. Comments that you might offer should be
included in your management report that is required to be submitted along
with the Inspector General’s report.


      Working together, I believe we have taken positive steps to improve
Commission programs and operations.


                                            Sincerely,



                                            Curtis W. Crider
                                            Inspector General




                                       ii
Profile of Performance

          Audit, Evaluation and Investigation Reports Issued
      for the Period April 1, 2013, through September 30, 2013




                                              Grant Audits (5)
                      38%

                                              Audits and
                                     62%      Evaluations of
                                              EAC (3)




                            Profile of Performance
     for the Period O April 1, 2013, through September 30, 2013


Results
Questioned Costs                                          $ 229,185
Potential Additional Program Funds                               $0
Funds to be Put to Better Use                                    $0




                                     iii
Table of Contents
                                                       Page




Election Assistance Commission Profile                  1


Office of Inspector General Profile                     2

EAC Audits                                              3

State Audits                                            5

Data Collection Grant Audits                            6


Other Activities                                       10

Peer Review Activity                                   11


Appendices:
  A. Reports Issued                                    13
  B. Monetary Impact of Audit Activities               15
  C. Reports with Questioned Costs                     16
  D. Reports with Potential Additional Program Funds   17
  E. Summary of Reports More Than Six Months Old       18
     Pending Corrective Action at September 30,
     2013
  F. Summary of Reports More Than Six Months Old       19
     Pending Management Decision at September 30,
     2013
  G. Reporting Requirements of the Inspector           20
     General Act

                             iv
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a bipartisan,
independent commission consisting of four members. The Help America Vote
Act of 2002 specifies that commissioners be nominated by the President on
recommendations from the majority and minority leadership in the U.S. House
and U.S. Senate. Once confirmed by the full Senate, commissioners may serve
two consecutive terms and no more than two commissioners may belong to the
same political party. There are four vacancies on the commission.


The EAC mission is to assist states with improving the administration of
elections for Federal office. The EAC accomplishes this mission by providing
funding, innovation, guidance and information to be used by the states to
purchase voting equipment, train election personnel, and implement new
election programs. The EAC has awarded over $3 billion in funding to the 50
states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam and
American Samoa (hereinafter referred to as “states”). With those funds, the
states have purchased voting equipment, established statewide voter
registration lists, implemented provisional voting, educated voters, trained
officials and poll workers, improved polling places, and recruited poll workers.


HAVA made EAC responsible for the federally run testing and certification
program for voting systems. Through this program, the EAC develops
standards for voting equipment, accredits laboratories, and reviews and
certifies voting equipment based upon the tests performed by the accredited
laboratories.


The EAC is responsible for administering the National Voter Registration Act
(NVRA) by promulgating regulations for the content and use of the National
Mail Voter Registration form.




                                     1
Office of Inspector General Profile

HAVA required the appointment of an inspector general for the EAC and
amended the Inspector General Act (IG Act) of 1978 (5 U.S.C.A. App. 3) to
identify the EAC as a designated Federal entity (DFE).


The OIG has always been a very small office. Other agencies have provided
assistance by detailing employees; we have contracted independent CPA firms
to conduct audits, and, finally, hiring permanent staff. The OIG currently has
one employee the inspector general.


Despite our small size, we perform all of the duties required of the inspector
general under the IG Act, including:


   •   Conducting and supervising audits, investigations, and other services
       (e.g., evaluations) relating to the programs and operations of the EAC;


   •   Providing leadership and coordination and recommending actions to
       management, which (1) promote economy, efficiency, and effectiveness
       in agency programs and operations; and (2) prevent and detect fraud,
       waste, abuse, and mismanagement of government resources; and


   •   Keeping the Commission, management, and Congress fully informed
       regarding problems and deficiencies, and the progress of corrective
       actions.


When conducting an investigation, we work with other Federal agencies to
detail investigators or contract for investigative services.


The OIG’s program to ensure economy, efficiency and integrity in the use of
funds does not exclusively translate into audits of the EAC or of its grant
recipients. The OIG also investigates allegations of waste, fraud, abuse and
mismanagement in EAC programs and operations. The OIG operates a hotline
to receive complaints regarding EAC, its programs, and its funding recipients.



                                       2
EAC Audits

FISMA Compliance


The Office of Inspector General (OIG) engaged Leon Snead & Co. P.C. (LSC), an
independent certified public accounting firm, to conduct an audit of the EAC’s
compliance with the OMB Circular A-130 and the Federal Information Security
Management Act (FISMA) requirements. FISMA requires federal agencies,
including EAC, to perform annual independent evaluations of their information
security programs and practices and report the results to the Office of
Management and Budget (OMB). The objective of this audit was to assess
whether the EAC had developed, documented, and implemented an agency-
wide information security program, as required by OMB Circular A-130 and
FISMA.


LSC concluded that EAC was in substantial compliance with FISMA
requirements, OMB policy and guidelines, and applicable NIST standards and
guidelines for the security control areas that were evaluated. LSC determined
that EAC had developed an agency-wide information technology security
program based upon assessed risk, and the security program provided
reasonable assurance that the agency’s information and information systems
were appropriately protected.


Privacy Act


The objective of the audit was to evaluate and report on whether the EAC had
established adequate privacy and data protection policies and procedures
governing the collection, use, disclosure, transfer, storage and security of
information relating to agency employees and the public. OIG contracted with
CliftonLarsonAllen LLP to perform the audit.


The audit found that the EAC had made improvements to strengthen controls
over the security of Personally Identifiable Information (PII) including
conducting Privacy Impact Assessments (PIA), appointed a senior agency official



                                      3
for privacy and privacy officer, and developed formalized policies and
procedures for PII; however, more work needed to be accomplished.


Specifically, EAC was not fully compliant with Section 522 of the Consolidated
Appropriations Act 2005 requirements, including:


   •   Effective encryption mechanisms to appropriately protect agency
       information, including PII had not implemented;


   •   Formalized PII usage reports were not submitted to the Office of
       Inspector General (OIG); and


   •   EAC Records Management Processes and Procedures Standard Operating
       Procedures were not formally documented.


The EAC has implemented or is in the process of implementing the
recommendations contained in the report.


Procurement


We contracted with the independent certified public accounting firm of
CliftonLarsonAllen LLP (CLA) to audit the U.S. Election Assistance Commission’s
acquisition and procurement of goods and services. The objective of the audit
was to determine if EAC had policies and procedures to allow them to be
compliant and maintain compliance with specific laws and regulations that
govern the Federal acquisition process, and to test EAC’s level of compliance
with these laws and regulations. The audit included a review of sample
procurement documents (contracts, purchase orders, blanket purchase
agreements, and inter-agency agreements) generated between October 1, 2008
and September 30, 2012. The review also included awards made prior to
October 1, 2008 that were outstanding or closed during the audit period.


CLA found that the EAC had policies and procedures; however, EAC did not
always adhere to the policies and procedures relative to the procurement of
goods and services. The report also reports internal control weaknesses during


                                      4
the implementation, summarization and reporting of the procurement activities.
The report also indicated that EAC’s continued decline in its annual
appropriation; the uncertainty of its continuing existence as an agency; its loss
of employees and inability to replace them; and the absence of sustained strong
leadership greatly contributed to the causes of the findings.


The EAC generally agreed with the report’s recommendations and indicated that
corrective has already been taken or will be taken to implement the
recommendations.


State Audits

HAVA funds have been distributed by the EAC to states for use to improve the
administration of Federal elections by purchasing new equipment, establishing
and operating statewide voter lists, implementing provisional voting, and
verifying the identity of persons who wish to register to vote. The OIG conducts
audits of the states’ use of HAVA funds. Through those audits, the OIG
examines:


   •   whether the recipient used HAVA funds in accordance with HAVA and
       other applicable Federal requirements;


   •   whether the recipient has properly accounted for purchases made with
       HAVA funds and any income derived from those purchases;


   •   whether grant funding was maintained and accounted for in keeping with
       HAVA; and


   •   Whether the recipient provided sufficient matching funds and maintained
       Federal monies in a separate, interest-bearing election fund.


The OIG contracted with the professional auditing firm of McBride, Lock &
Associates to conduct the HAVA funds audits. One report was issued during
this reporting period.



                                     5
Nebraska: The audit concluded that the Nebraska Secretary of State (SOS)
generally accounted for and expended the HAVA funds in accordance with
applicable requirements for the period from April 22, 2003 through September
30, 2012. However, the following exceptions were identified;


   •   The SOS submitted financial reports that could not be supported by
       underlying accounting records.


      The SOS did not accurately charge payroll costs to the grant based on
       percentage of effort for each of the State employees.


      The SOS property records were not adequate per 41 CFR 105-71.132.


      The SOS expended $10,000 of HAVA funds for purposes that are not
       allowable under the award’s terms and conditions or HAVA regulations.


      The SOS did not have established procurement policies for soliciting
       services.


In its August 29, 2013 response to the draft report, the SOS provided
comments to the findings and corrective actions, as applicable, to address the
recommendations. The SOS did not agree with the questioned costs of $38,617
related to unsupported payroll costs or that it spent grant funds for unallowable
purposes.    The EAC indicated that it would work with the SOS to ensure
corrective action.


Data Collection Grant Audits

The EAC OIG contracted with the professional auditing firm of McBride, Lock &
Associates to conduct four audits of recipients of EAC data collection grants
(Illinois, Minnesota, Ohio and Pennsylvania). The objective of the audit was to
determine whether the grant recipient used the funds in accordance with
applicable federal requirements. Below are summaries of the audits:



                                     6
Pennsylvania: The Secretary of the Commonwealth accounted for and
expended the 2008 Election Data Collection Grant funds in accordance with
applicable requirements for the period from May 27, 2008 through June 30,
2011.


Ohio: The Ohio Secretary of State (SOS) generally accounted for and expended
the Election Data Collection grant funds in accordance with applicable
requirements for the period from May 27, 2008 through June 30, 2010.
However, the following exceptions were identified;


   •    The SOS did not credit interest earnings to the grant fund in a timely
        manner.


   •    The SOS paid invoices which did not have adequate detail of hours and
        hourly rates to support contractor billings as outlined in the agreed-upon
        contract provisions.


The SOS agreed with the report’s finding and recommendations, and provided
corrective actions. The EAC indicated that it would work with the SOS to ensure
corrective action.


Minnesota; The Minnesota Secretary of State (SOS) generally accounted for and
expended the Election Data Collection grant funds in accordance with
applicable requirements for the period from May 27, 2008 through June 30,
2010. However, the following exceptions were identified;


   • The SOS’s inventory listings did not conform to the requirements of 41
        C.F.R. 105-71.132 (d) (1), (the Common Rule). Various categories of
        required information were missing from the listings, including location
        and use and condition of property.


   •    The SOS charged $31,415 in personnel expenses to the Grant that were
        not supported by adequate documentation.




                                      7
   •   The SOS lacked complete, documented departmental internal control
       policies.

In its August 26, 2013 response to the draft report the SOS provided comments
to the findings and corrective actions, as applicable, to address the
recommendations. The SOS did not agree with the finding related to
unsupported payroll costs or the related questioned costs of $31,145. The EAC
indicated that it would work with the SOS to ensure corrective action.


Illinois: The Illinois Board of Elections (Board) generally accounted for and
expended the Election Data Collection grant funds in accordance with
applicable requirements for the period from May 27, 2008 through June 30,
2010. However, the following exceptions were identified;


   •   The Board lacked complete, documented policies with respect to award
       administration, accounting and financial reporting.


   •   The Board’s internal control processes were not adequate to prevent or
       detect the payment of invoices lacking adequate approvals and detail of
       hours and hourly rates as outlined in the agreed-upon contract
       provisions.


In its August 28, 2013 response to the draft report, the Board provided
comments to the findings and corrective actions, as applicable, to address the
recommendations. The Board did not agree with the questioned costs of
$119,595 related to the finding concerning contract monitoring. The EAC
indicated that it would work with the SOS to ensure corrective action.


Consultants Sentenced


In 2007, the OIG conducted an audit of the New Mexico Secretary of State’s
(NMSOS) use of federal HAVA funds. The audit identified a number of
significant problems with a contract awarded by the NMSOS to A. Gutierrez and
Associates, Inc. (AGA) for a public education campaign. The Office of the


                                     8
Secretary of State used HAVA funds to award the contract. The Office of the
Secretary of State paid AGA $6,271,810 on the basis of an understanding
reached with the contractor that was not incorporated into the contract and
which was different than the basis upon which the contract was awarded. AGA
substantiated net costs of only $2,618,496.


Subsequent to our audit, the IRS-Criminal Investigation and the Albuquerque
Field Office of the FBI, with assistance from the New Mexico Attorney General’s
Office conducted a separate investigation. The investigation found that AGA
received a total of $6,271,810 in federal HAVA funds from the State of New
Mexico but AGA submitted documentation supporting only $3,385,151 in
services and costs, resulting in an overpayment of $2,500,993 to which AGA
was not entitled.


On January 31, 2013, a federal jury found Armando C. Gutierrez, and Joseph C.
Kupfer, guilty of conspiracy and theft of government property. The jury also
convicted Gutierrez on obstruction of justice and money laundering charges.


The evidence established Gutierrez and Kupfer conspired together to defraud
the United States by stealing federal HAVA funds and converting the funds for
their own use. Specifically, the two men unlawfully obtained federal HAVA funds
for work they did not perform and services they did not provide by: (1)
submitting false invoices for services that AGA and KC never provided; (2)
attempting to obstruct an audit by the Election Assistance Commission (EAC);
and (3) attempting to conceal the federal HAVA funds that they stole.


Gutierrez was sentenced on August 19, 2013, to 10 years in federal prison,
followed by three years of supervised release, for his convictions for conspiracy,
theft of government property, obstruction of justice, and money laundering.
Gutierrez also was ordered to pay $2,500,483 in restitution to the state of New
Mexico, including $746,375 that is to be paid jointly with Kupfer. He also was
ordered to forfeit $2,500,483, including his interest in his Corpus Christi
residence, to the United States.




                                     9
On September 11, 2013, Kupfer was sentenced, to 10 years in federal prison,
followed by three years of supervised release, for his convictions for conspiracy,
theft of government property, and tax evasion. Kupfer also was ordered to pay
$746,375 in restitution to the state of New Mexico and $288,339 in restitution
to the IRS. Kupfer is to pay the restitution payment to the state of New Mexico
jointly with co-defendant Armando C. Gutierrez, 65, of Corpus Christi, and the
restitution payment to the IRS jointly with his wife and co-defendant Elizabeth
D. Kupfer. Kupfer also was ordered to forfeit $746,375 to the United States.



Other Activities


Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and policy-
making efforts. We provide comment to significant policy statements,
rulemaking and legislation that affects the EAC. During this reporting period,
the EAC did not have any Commissioners and did not issue any policy
determinations. The Administration issued several pieces of guidance and
Executive Orders during the reporting period, which we reviewed. Last, we
participated in surveys and data calls issued by the Council of Inspectors
General on Integrity and Efficiency.


Matters Referred to Prosecuting Authorities


We are reporting no activities in this category during the reporting period.


Denial of Access to Records


We are reporting no activities in this category during the reporting period.




                                       10
Peer Review Activity

Section 989C of the Dodd-Frank Act contains additional semiannual reporting
requirements pertaining to peer review reports. Federal Inspectors General are
required to engage in peer review processes related to both their audit and
investigative operations. In keeping with Section 989C, the EAC OIG is reporting
the following information related to its audit peer review activities. These
activities cover our role as both the reviewed and the reviewing OIG.


Audit Peer Reviews


On a 3-year cycle, peer reviews are conducted of an OIG’s audit organization’s
system of quality control in accordance with the CIGIE Guide for Conducting
External Peer Reviews of the Audit Organizations of Federal Offices of Inspector
General, based on requirements in the Government Auditing Standards.

During this semiannual reporting period, no peer reviews were conducted by
another OIG organization on the EAC OIG and EAC OIG did not conduct a peer
review on other OIGs. Listed below is information concerning peer review
activities during prior reporting periods


Peer Review of EAC OIG Audit: In a prior reporting period, the EAC OIG was
subject to a peer review. The Federal Labor Relations Authority, Office of
Inspector General (FLRA OIG) conducted the review and issued its system report
on July 31, 2012. In the FLRA OIG’s opinion, the system of quality control for
the EAC OIG audit organization in effect for the year-ended March 31, 2012,
had been suitably designed and complied with to provide EAC OIG with
reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects. The EAC OIG received a peer
review rating of pass.


EAC OIG Peer Review of Federal Trade Commission: During a prior reporting
period, the EAC OIG completed a peer review of the audit operations of the
Federal Trade Commission, Office of Inspector General (FTC OIG). We reported



                                     11
that in our opinion the system of quality control for the audit organization of
FTC OIG in effect for the year-ended March 31, 2012, had been suitably
designed and complied with to provide FTC OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards
in all material respects. The FTC OIG has received a peer review rating of pass.
The report was issued on September 7, 2012.




                                    12
                                                        Appendix A
Reports Issued

EAC Audits           U.S. Election Assistance Commission’s
                     Compliance with the Requirements of the
                     Federal Information Security Management Act
                     (Assignment No. I-PA-EAC-02-13), September
                     2013


                     U.S. Election Assistance Commission’s
                     Acquisition and Procurement of Goods and
                     Services (Assignment Number I-PA-EAC-03-
                     12), September 2013


                     Review of the U.S. Election Assistance
                     Commission Compliance with Section 522 of
                     the Consolidated Appropriations Act 2005,
                     (Assignment No. I-PA-EAC-04-12), April 2013


State Audits         Administration of Payments Received Under
                     the Help America Vote Act by the Nebraska
                     Secretary of State (Assignment No. E-HP-NE-
                     07-12), September 2013


Other Grant Audits   2008 Election Data Collection Grant Program
                     Award Number: 08-EDC-800166, State of
                     Minnesota (Assignment No. E-GR-MN-04-
                     12), September 2013


                     2008 Election Data Collection Grant Program
                     Award Number: 08-EDC-800176, State of
                     Illinois (Assignment No. E-GR-IL-01-12),
                     September 2013




                             13
2008 Election Data Collection Grant Program
Award Number: 08-EDC-800168, State of
Ohio (Assignment No. E-GR-OH-02-12),
September 2013


2008 Election Data Collection Grant Program
Award Number: 08-EDC-800165
Commonwealth of Pennsylvania
(Assignment No. E-GR-PA-03-12), September
2013




        14
                                                       APPENDIX B
   Monetary Impact of Audit Activities

   Questioned Costs*                                   $229,185
   Potential Additional Program Funds                        $0
   Funds to Be Put to Better Use                             $0
   Total                                               $229,185
*Unsupported costs are included in questioned costs.




                                         15
                                                         APPENDIX C
Reports With Questioned Costs

                                          Questioned    Unsupported
          Category               Number     Costs          Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            0          $0            $0

B. Which were issued during
the reporting period.              3        $ 229,185       $0

Subtotals (A + B)                  3        $ 229,185       $0

C. For which a management
decision was made during the
reporting period.                  0          $0            $0

 (i) Dollar value of
recommendations that were
agreed to by management.                      $0            $0

 (ii) Dollar value of
recommendations not agreed
to by management.                             $0            $0

D. For which no management
decision has been made by
the end of the reporting
period.                            3       $ 229,185        $0




                                    16
                                                   APPENDIX D
Reports With Potential Additional Program Funds

            Category                   Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                  0          $0
B. Which were issued during the
reporting period.                        0          $0

Subtotals (A+B)                          0          $0

C. For which a management
decision was made during the
reporting period.                        0          $0

 (i) Dollar value of
recommendations that were
agreed to by management.                            $0

 (ii) Dollar value of
recommendations that were not
agreed to by management.                            $0

D. For which no management
decision has been made by the
end of the reporting period.             0          $0
                                                                $   0




                                  17
                                                                       APPENDIX E
Summary of Reports More Than Six Months Old Pending
Corrective Action at September 30, 2013

The following is a list of audit and evaluation reports that are more than six
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

I-EV-EAC-01-07B             Assessment of the U.S. Election Assistance
                            Commission’s Program and Financial Operations,
                            February 2008, 4 Recommendations


I-PA-EAC-01-12              Independent Auditor's Reports on the U.S. Election
                            Assistance Commission's Financial Statements for Fiscal
                            Year 2012, November 2012, 4 Recommendations




                                         18
                                                                   APPENDIX F
Summary of Reports More Than Six Months Old Pending
Management Decision at September30, 2013

This listing includes a summary of audit and evaluation reports that were more
than 6 months old on September 30, 2013 and still pending a management
decision. It provides report number, title, and number of unresolved
recommendations.


None.




                                       19
                                                                                  APPENDIX G
Reporting Requirements of the IG Act

 Section of Act                               Requirement                               Page

Section 4(a)(2)       Review of Legislation and Regulations                              10

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                    None

Section 5(a)(2)       Recommendations for Corrective Action With Respect to             None
                      Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)       Significant Recommendations From Agency’s Previous Report on       18
                      Which Corrective Action Has Not Been Completed

Section 5(a)(4)       Matters Referred to Prosecuting Authorities and Resulting         None
                      Convictions

Section 5(a)(5)       Matters Reported to the Head of the Agency                        None

Section 5(a)(6)       List of Reports Issued During the Reporting Period                 13

Section 5(a)(7)       Summary of Significant Reports                                      3

Section 5(a)(8)       Statistical Table – Questioned Costs                               16

Section 5(a)(9)       Statistical Table – Recommendations That Funds Be Put to Better   None
                      Use

Section 5(a)(10)      Summary of Audit Reports Issued Before the Commencement of        None
                      the Reporting Period for Which No Management Decision Has
                      Been Made

Section 5(a)(11)      Significant Revised Management Decisions Made During the          None
                      Reporting Period

Section 5(a)(12)      Significant Management Decisions With Which the Inspector         None
                      General Is in Disagreement

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal         None
                      Financial Management Improvement Act of 1996

Section 5(a)(14)(A)   Peer Review Reports Conducted on U.S. Election Assistance         None
                      Commission Office of Inspector General during the Reporting
                      Period
 Section of Act                                Requirement                            Page
Section 5(a)(14)(B)   Statement of Peer Review Conducted on the U.S. Election          11
                      Assistance Commission Office of Inspector General during a
                      Prior Reporting Period

Section 5(a)(15)      Outstanding Recommendations from a Peer Review Report on        None
                      the U.S. Election Assistance Commission Office of Inspector
                      General

Section 5(a)(16)      Peer Review Reports Conducted by the U.S. Election Assistance    11
                      Commission Office of Inspector General
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general/

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
of OIG Reports
                                U.S. Election Assistance Commission
                                Office of Inspector General
                                1335 East West Highway - Suite 4300
                                Silver Spring, MD 20910


                           To order by phone: Voice:      (301) 734-3104
                                                 Fax: (301) 734-3115



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1335 East West Highway - Suite 4300
and Abuse Involving the               Silver Spring, MD 20910
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general/
                           FAX: (301) 734-3115
               Inspector General
              U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the internet at:
www.eac.gov/inspector_general/
